   July 5, 2006




Homeland Security
FY 2006 Military Identifier Data
within the Department of Defense
(D-2006-095)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
                                       INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                   ARLINGTON, VIRGINIA 222024704


                                                                                         July 5,2006


MEMORANDUM FOR AUDITOR GENERAL OF THE ARMY
               NAVAL INSPECTOR GENERAL
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT COMPTROLLER)
               UNDERSECRECTARY OF DEFENSE (COMPTROLLER) / CHIEF
                 FINANCIAL OFFICER
               UNDERSECRETARY OF DEFENSE .FOR PERSONNEL AND
                 READINESS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               COMMANDER, U.S. MILITARY ENTRANCE PROCESSING
                 COMMAND
SUBJECT: FY 2006 Military Identifier Data within the Department of Defense (Project
         NO. D2006-DOOOFP-0026.000)

We are providing this audit memorandum for your information and use. The audit was initiated
because the Social Security Administration Inspector General (SSA IG) reported in
September 2005, that 5,192 Department of Defense (DoD) employees were receiving salaries
using socpl security numbers (SSNs) that were originally issued to individuals for non-work
purposes. The SSA IG concluded that it is possible DoD Components are employing
individuals who are not authorized to work in the United States.
This memorandum discusses our evaluation of the SSA IG findings. We asked the SSA IG to
distinguish between civilian and military personnel in their findings, but they were unable to do
so. Therefore, we focused on the recruitment of military personnel because public law restricts
eligibility to serve in the military to United States citizens or legal permanent residents
authorized to work in the United States.
Objective, Scope, and Methodology. The objective of this audit was to determine whether
DoD adequately verifies personnel identifier information, including the use of special social
security numbers, to ensure that military personnel meet qualifications to serve in the military.
To meet the audit objective, we requested access to the SSA IG's audit files and supporting
documentation related to the 5,192 DoD employees discussed in their report. Additionally, we
reviewed prior audit reports, researched the accuracy and adequacy of the Non-Work Alien File
used to derive the list of 5,192 DoD employees, reviewed congressional testimony, and
interviewed SSA IG staff to discuss their audit methodology. We also reviewed accession
policies and procedures at the U.S. Military Entrance Processing Command and reviewed
enlistment policies for each of the military Services.
We conducted this performance audit from October 2005 through April 2006, in accordance with
generally accepted government auditing standards.


' "Unauthorized Work Social Security Numbers at Department of Defense," (Report A-03-05-25 127) SSA IG,
September 2005.
Background. Each year, the SSA informs the Department of Homeland Security (DHS), United
States Citizenship and Immigration Services (USCIS) about non-citizens who are potentially
working illegally. The SSA sends DHS and USCIS information on individuals who have
earnings recorded under SSNs assigned for non-work purposes. It sends the information, called
the Non-Work Alien File, as an electronic data file 6 to 18 months aAer the earnings are
recorded.
The SSA IG issued a series of audit reports about the use of non-work social security numbers
based on its analysis of the Non-Work Alien File. One report pertains to DoD employees listed
in the file. The report, "Unauthorized Work Social Security Numbers at Department of
Defense," (Report A-03-05-25127), was issued September 20,2005. The report states that 5,192
DoD e~ployeeshad earnings reported under SSNs that were originally issued as non-work
SSNs. The SSA IG concluded that possibly DoD Components employed individuals who were
not authorized to work in the United States. The report recommends that the SSA work with
DoD and DHS, as appropriate, to share information on all existing employees, military and
civilian, who have income reported under non-work SSNs so that SSA records can reflect
changes in the employees' work authorizations. The SSA IG forwarded its audit results to the
DoD IG for further investigation.
Interagency Cooperation. In order to address the SSA IG's concerns, we met with SSA IG
staff to discuss the audit results, scope, and methodology SSA IG used to identify the 5,192
employees in the report. Additionally, we requested access to the SSA IG's audit files pertaining
to DoD employees identified in their report so that we could investigate further. However, the
SSA IG denied access to their files stating that SSA does not have the legal authority to disclose
non-work status to employers, including DoD.
Because we were not provided access to the documentation supporting the conclusions in the
SSA IG report, we evaluated the capacity of SSA's Non-Work Alien File for verifying
citizenship and legal residency status. Specifically, we wanted to assess whether DoD
Components employed individuals who are not authorized to work in the United States. We also
looked at coiitrols over the military accession process.
Result of Review. We determined that SSA's Non-Work Alien File is inadequate for the
purpose of determining citizenship or legal residency of individuals recruited for military Service
because the file is not routinely updated with the aliens' immigration status. In fact, DHS and
SSA IG themselves voiced reservations regarding the accuracy of the information in the file.
        SSA Non-Work Updates. SSA only updates the work authorization status in the Non-
Work Alien File at the request of the SSN holder. Therefore, individuals named in the file may
now be U.S. citizens or legal residents who siniply have not updated their status with SSA.
Further, individuals are not required to update their immigration status to SSA. Immigration
status is a DHS, not an SSA responsibility. SSA and DHS both acknowledge that the file may
include large numbers of people who are currently authorized to work.
        Timeliness of SSA's Non-Work Alien File. When SSA processes the data used to
create the Non-Work Alien File, the source information is at least 2 years old. Therefore, by the
time the file is compiled, many of the non-citizens included in the file may have changed
employers, relocated, or changed their immigration status. The use of outdated information for
audit purposes sets the context for the SSA IG's findings. The Non-Work Alien File the SSA IG
relied on to derive their audit results contained data that was untimely and unreliable.

* Non-work social security numbers are issued to non-citizens who are unauthorized to work in the United States but
need a social security number for valid non-work purposes.
        Accuracy of SSA's Non-work Alien File. Both DHS and SSA IG question the accuracy
of the Non-Work Alien File. The Government Accountability Office testified before the
Subcommittee on Social Security and Oversight, Committee on Ways and Means, that DHS
found the Non-Work Alien File of little use to enforce immigration activities in part because of
inaccuracies in the data.3
Although specific details were not provided to us by SSA IG, their own assessments of the Non-
Work Alien File also def4eminedthat there are "serious problems" with the accuracy of some of
the non-work alien data. The SSA IG concluded that SSA needs to obtain timely and accurate
information fi-om the USCIS to ensure the validity and usefulness of data recorded in the Non-
Work Alien File. The SSA IG recommended that SSA verify the accuracy of USCIS work status
for each non-work SSN. However, both agencies had difficulty effectively matching data records
because of incompatible data fields.
Summary of Audit Results. In light of its inaccuracy, we believe that the Non-Work Alien File
used by the SSA is an insufficient foundation for asserting whether DoD Components employed
individuals who were not authorized to work in the United States. Nevertheless, the military
Services have been strengthening controls to ensure that only eligible personnel are entering the
military. We believe these efforts are far more effective in verifying eligibility to serve in the
military than the SSA IG's use of the Non-Work Alien File.
Services' Efforts to Improve Enlistment Process Controls. In memorandums dated
October 28,2002, the Deputy Secretary of Defense and the Under Secretary of Defense,
Personnel and Readiness directed that the military Services improve verification of personnel
identifier infomiation.
The Deputy Secretary of Defense expressed concerns about the Department's ability to identify
and locate non-citizens serving in the military. The Deputy Secretary of Defense directed that all
military Services ensure that infomiation regarding place of birth and citizenship status of non-
citizen military members is collected, and kept current in all DoD data bases, Defense Manpower
Data Center data bases, and all data bases pertaining to security clearances and investigations.
Additionally, the Under Secretary of Defense, Personnel and Readiness specifically directed the
military Services to be more diligent in collecting and recording accurate SSNs, place of birth,
and citizenship status. The Services were directed to provide source documents during pre-
enlistment screening so that accurate place of birth and citizenship data is verified.
In response to these requirements, the United States Military Entrance Processing Command
implemented procedures to verify personnel identifier information including citizenship or legal
permanent residency. Currently, citizenship or legal permanent residency eligibility requirements
for personnel enlisting in the military are verified against SSA and DHS data bases that are more
accurate than the Non-Work Alien File. Furthermore, military recruiters are required to
physically examine documents to ensure citizenship or legal permanent residency. For non-
citizens, there are only two acceptable forms of proof of legal permanent residency, either an I-
551, known as a green card or a G-845, the military's formal request for verification from DHS.
These procedures are in addition to other eligibility requirements including background
investigations, finger printing, and other screening methods.


3
 Testimony before the Subcommittee on Social Security and on Oversight, Committee on Ways and Means, House
of Representatives, Social Security Numbers, "Coordinated Approach to SSN Data Could Help Reduce
Unauthorized Work," GAO-06-458T, February 16,2006.
 "Profile of the Social Security Administration's Non-Work Alien File," September 5,2003 (A-14-03-23071).
Conclusion. Through the United States Military Entrance Processing Command, the Services
have established controls to adequately verify personnel identifier information, including the use
of special social security numbers, to ensure that military personnel meet qualifications to serve
in the military. We are considering including additional reviews of the military accession
process in our annual audit planning.
We appreciate the courtesies extended to the staff. For additional information on this report,
please contact Mr. Joseph Powell at (703) 428-1052 (DSN 328-1052) or Mr. Gerald P. Montoya
at (703) 428-0753 (DSN 328-0753).
                             By direction of the Deputy Assistant Inspector General for Auditing:




                                         Pf.   Graneno
                                   Assist t Inspector General
                                   Defense Financial Auditing
                                             Service


cc: Commissioner of Social Security
    Inspector General, Social Security Administration
    Secretary, Department of Homeland Security
